No. 19-127

 

du the
Supreme Court of the United States

Anmarie Calgaro,
Petitioner,
vs.

St. Louis County, Linnea Mirsch, Individually and in
her Official Capacity as Interim Director of St. Louis
County Public Health and Human Services, Fairview
Health Services, A Minnesota Nonprofit Corporation,
Park Nicollet Health Services, A Nonprofit Corporation,
St. Louis County School District, Michael Johnson,
Individually and in His Official Capacity as Principal
of the Cherry School, St. Louis County School District
and K.J.K.
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

BRIEF IN OPPOSITION OF RESPONDENTS
ST. LOUIS COUNTY SCHOOL DISTRICT
AND PRINCIPAL MICHAEL JOHNSON

AFFIDAVIT OF SERVICE

Stephen M. West, states that all parties required to be
served have been served and that three true and correct
copies of the Brief in Opposition of Respondent St. Louis
County School District and Principal Michael Johnson
was served on the persons listed below on the 23rd day
of August, 2019, by depositing them with the United
States Post Office, with First Class Postage prepaid.
Thomas Brejcha

THOMAS MORE SOCIETY
309 West Washington Street
Suite 1250

Chicago, IL 60606

Matthew F. Heffron
THOMAS MORE SOCIETY
10506 Burt Circle

Suite 110

Omaha, NE 68114

Erick G. Kaardal
MOHRMAN, KAARDAL &
ERICKSON, P.A.

150 South Fifth Street
Suite 3100

Minneapolis, MN 55402

Nick D. Campanario
COUNTY ATTORNEY'S
OFFICE

100 North Fifth Avenue West
Room 501

Duluth, MN 55802-2322

William Lawrence Davidson
Joao C.J.G. De Medeiros
Paul C. Peterson

David M. Wilk
LARSON + KING

30 East Seventh Street
Suite 2800

Saint Paul, MN 55101

Martin S. Chester

Emily E. Chow

FAEGRE BAKER DANIELS
90 South Seventh Street
Suite 2200

Minneapolis, MN 55402

Christopher F. Stoll
NATIONAL CENTER
FOR LESBIAN RIGHTS
870 Market Street,

Suite 370

San Francisco, CA 94102

Keith Ellison

OFFICE OF THE
ATTORNEY GENERAL
445 Minnesota Street
Suite 1400

St. Paul, MN 55101

LIND, JENSEN, SULLIVAN &

PETERSON

901 Marquette Avenue South

Suite 1300
Minneapolis, MN 55402
oe

Stephen M. West

Subscribed and sworn to before me this 23rd day of
August, 2019. wenssesees:

   
 
   

  

MOTCH
Sa) NOTARY PUBLIC- MINNESOTA {
My Commission Expires Jan. 31, 2020 $

    
 

ZY hé
Notary Public
